No.
IN THE

Supreme Court of tfje Hmteb H>tate£
NAZARIY KMET,
Petitioner,
v.

UNITED STATES,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
APPENDIX

Nazariy Kmet
2284 Sand Trap Rd.
Jamison, PA 18929

Pro se

APPENDIX A

Case 2:14-cr-00319-NIQA Document226 Filed 07/16/19 Page lot4

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
CRIMINAL ACTION

UNITED STATES OF AMERICA
Plaintiff

NO. 14-319-1
v.
NAZARIY KMET.
Defendant

ORDER
AND NOW, this 16th day of July 2019, upon careful consideration of the motion to vacate,
set aside, or correct sentence filed by then pro se Defendant Nazariy Kmet (“Defendant”)
pursuant to 28 U.S.C. § 2255, [ECF 153], the Government’s response in opposition, [ECF 160],
Defendant’s counseled amended memorandum in support of his motion, [ECF 179], the
Government’s response in opposition, [ECF 190], the parties’ post-hearing memoranda, [ECF
199, 200], the Report and Recommendation submitted by United States Magistrate Judge Lynne
A. Sitarski, (“Magistrate Judge”), [ECF 208], Defendant’s amended objections to the R&R, [ECF
221], the Government’s response to the objections, [ECF 224], and Defendant’s reply, [ECF 225],
it is hereby ORDERED that:
1.

The Report and Recommendation is APPROVED and ADOPTED;

2.

The objections to the Report and Recommendation are OVERULED;,i

i

By Order dated December 6, 2017, this Court referred Defendant’s § 2255 motion to vacate, set
aside, or correct sentence to the Magistrate Judge with specific instructions to appoint counsel, conduct an
evidentiary hearing on Defendant’s claims of ineffective assistance of trial and appellate counsel, address
the effect, if any, of United States v. Advantage Medical Transport, 698 F. App’x 680 (3d Cir. 2017) on
Defendant’s claims, and issue a Report and Recommendation (“R&R”). [ECF 167], Consistent with said
Order, the Magistrate Judge issued the 61 -page R&R wherein Defendant’s claims were thoroughly analyzed.
In his amended objections to the R&R, Defendant takes issue with the Magistrate Judge’s finding
that counsel “was not ineffective in failing to ‘Research the Concept of Medical Necessity/Present a Defense
Based on Physician Certificates.’” [ECF 221 at 1], Specifically, Defendant argues that counsel was

Case 2:14-cr-00319-NIQA Document 226 Filed 07/16/19 Page 2 of 4

ineffective in failing to research the operative Medicare regulations in effect at the time which would have
uncovered a potentially viable defense to the two counts to which Defendant pled guilty. In his reply,
Defendant further argues that “the issue before the Court is not whether Schaffer [counsel] would have
given [Defendant] different legal advice had he properly researched and imparted the regulations to
[Defendant] prior to the change of plea hearing. Rather, the focus is on [Defendant’s] decision making
process as he, not Schaffer, is the one who ‘must show that there is a reasonable probability that, but for
counsel’s errors, he would not have pleaded guilty and would have insisted on going to trial.’” [ECF 225
at 1] (quoting///// v. Lockhart, 474 U.S. 52, 59 (1985)). Defendant’s objections, however, are nothing
more than a disagreement with the Magistrate Judge’s findings and an attempt to relitigate the various
arguments raised in his motion to vacate. Those arguments were thoroughly considered and analyzed by
the Magistrate Judge, who correctly concluded they were baseless.
In conducting its de novo review of a defendant’s objections, a court may accept, reject, or modify,
in whole or in part, the factual findings or legal conclusions of the magistrate judge. 28 U.S.C. § 636(b)(1).
Although the review is de novo, the statute permits the court to rely on the recommendations of the
magistrate judge to the extent it deems proper. United States v. Raddatz, 447 U.S. 667, 675-76 (1980);
Goney v. dark, 749 F.2d 5, 7 (3d Cir. 1985).
In addressing ineffective-assistance-of-counsel claims, courts must apply the familiar two-prong
inquiry articulated in Strickland v. Washington, 466 U.S. 668 (1984). Thus, to sustain a claim for ineffective
assistance of counsel, Defendant must show that counsel’s performance was objectively deficient and that
this deficient performance prejudiced the defense. Id. at 687. The Strickland standard “applies to
challenges to guilty pleas based on ineffective assistance of counsel.” Hill, 474 U.S. at 56. Counsel must
“give a defendant enough information ‘to make a reasonably informed decision whether to accept a plea
offer.’” United States v. Bui, 795 F.3d 363, 367 (3d Cir. 2015) (citations omitted). In the plea context, to
prove prejudice, “the defendant must show that there is a reasonable probability that, but for counsel’s
errors, he would not have pleaded guilty and would have insisted on going to trial.” Hill, 474 U.S. at 59.
“Courts should not upset a plea solely because ofpost hoc assertions from a defendant about how he would
have pleaded but for his attorney’s deficiencies. Judges should instead look at contemporaneous evidence
137 S. Ct. 1958,
to substantiate a defendant’s expressed preferences.” United Stales v. Lee,__U.S.
1967 (2017).
_____5

This Court has thoroughly reviewed the record, concurs with the opinions rendered, and finds that
no error was committed by the Magistrate Judge in the analysis offered, the credibility assessments made,
and the conclusions reached on Defendant’s claims. Of note, Defendant was charged by indictment with
numerous offenses; to wit: conspiracy to commit health care fraud in violation of 18 U.S.C. § 1349 (Count
One); two counts of wire fraud, in violation of 18 U.S.C. § 1343 (Counts Two and Three); two counts of
making false statements in connection with health care matters in violation of 18 U.S.C. § 1035 (Counts
Four and Five); violation of the anti-kickback statute, 42 U.S.C. § 1320a-7b(b)(2)(B) (Count Seven); four
counts of money laundering, including one count in violation of 18 U.S.C. § 1956 (Count Nine); and three
counts in violation of 18 U.S.C. § 1957 (Counts Ten through Twelve). Represented by counsel, Defendant
pled guilty to conspiracy to commit healthcare fraud and to violations of the Anti-Kickback Statute pursuant
to a negotiated plea agreement, in exchange for the dismissal of the remaining counts. During the guiltyplea colloquy, Defendant admitted to this Court that he was guilty of the conspiracy to commit health care
fraud and the violations of the anti-kickback statute. Specifically, he admitted in the plea agreement and
reaffirmed his admission in open court that he schemed to defraud Medicare “by transporting dialysis patients
in ambulances and other vehicles when those patients were able to walk and/or be transported safely by other
means; billing Medicare for medically unnecessary ambulance transportation; and paying kickbacks to
patients to induce them to ride with Life Support even though their transportation by ambulance was not

2

Case 2:14-cr-00319-NIQA Document 226 Filed 07/16/19 Page 3 of 4

3.

Defendant’s motion to vacate, set aside, or correct sentence is DENIED;

4.

Defendant’s pending pro se motions, [ECF 163-165], are DENIED; and

5.

A certificate of appealability is hereby issued.2

medically necessary.” (Plea Agreement ^ 1). Though Defendant later attempted to withdraw his guilty plea,
his motion was denied by this Court. A subsequent appeal of the denial of his motion to withdraw his guilty
plea was affirmed by the United States Court of Appeals for the Third Circuit.
In the instant motion to vacate, Defendant essentially argues that he would have insisted on going
to trial on all the charges he faced in the 12-count indictment had counsel advised him properly with respect
to potential available defenses. Following an evidentiary hearing on Defendant’s ineffective-assistance-ofcounsel claim, the Magistrate Judge found that counsel testified credibly. Counsel admitted that he had not
researched the Medicare regulation, but testified that had he, his advice would not have changed in light of
the overwhelming evidence the Government had against Defendant. While Defendant argues it “was
impossible for [Defendant] to make an informed decision to plead guilty without a full understanding of
the significance the CMNs [certificates of medical necessity] had in the determination of medical necessity
under the operative regulations in effect at the time of the transport,” this Court finds this objection
disingenuous. Defendant admitted to having been trained on the regulations and the need to document his
transports. He also admitted to transporting patients that were ambulatory, did not need a stretcher, and at
times rode in the front seat. Further, his lack of knowledge of the significance of the CMNs has little to no
relevance to the other charges against him. Counsel negotiated the dismissal of these other charges under
the plea agreement. Without the plea agreement, Defendant faced prosecution of serious felony offenses
not affected by the Medicare regulation and the possible defense he now purports to assert. Counsel
considered the entire exposure and ably negotiated with the Government. Based on the totality of the
record, this Court agrees with the Magistrate Judge’s comprehensive analysis and well-founded
conclusions. Accordingly, the objections are overruled.
2
A movant who seeks to appeal a final order of a district court must obtain a certificate of
appealability for each claim he wishes to present to the Court of Appeals. 28 U.S.C. § 2253(c)(1)(B). A
certificate of appealability should be granted only when jurists of reason could debate procedural or
substantive dispositions of a movant’s habeas claim. See Slack v. McDaniel, 529 U.S. 473, 484 (2000). A
movant satisfies this “standard by demonstrating that jurists of reason could disagree with the district court’s
resolution of the Case or that the issues presented were adequate to deserve encouragement to proceed
further.” Miller-El v. Cockrell, 537 U.S. 322, 323 (2003). The movant, however, need not demonstrate
that his appeal will succeed. Id.
Here, reasonable jurists could debate whether Defendant received ineffective assistance of counsel,
i.e.: whether counsel’s performance was unconstitutionally deficient by failing to advise Defendant of a
potential defense to one of two charges to which he pled guilty; and whether Defendant, despite the
government’s evidence against him, would have foregone the plea agreement and the dismissal of most of
the charges against him and, instead, have gone to trial based on the potential defense to one of the twelve
counts. Further, reasonable jurists have debated whether the relevant clause of the Medicare regulation in
effect at the time of the underlying conduct, i.e., 42 C.F.R. § 410.40(d)(2), accepted certificates of medical
necessity as the only proof of medical necessity for ambulance rides, or whether this provision required
additional and separate proof of the medical necessity requirements listed in § 410.40(d)( 1). See 42 C.F.R.
§ 410.40(d)(2) (2012) (“Special rule for nonemergency, schedule, repetitive ambulance services. Medicare

3

Case 2:14-cr-00319-NIQA Document 226 Filed 07/16/19 Page 4 of 4

BY THE COURT:
/s/ Nitza I. Quinones Alejandro
NITZA I. QUINONES ALEJANDRO
Judge, United States District Court

covers medically necessary nonemergency, scheduled, repetitive ambulance services if the ambulance
provider or supplier, before furnishing the service to the beneficiary, obtains a written order from the
beneficiary’s attending physician certifying that the medical necessity requirements of paragraph (d)(1) of
this section are met. The physician’s order must be dated no earlier than 60 days before the date the service
is furnished.”). Defendant’s request for a certificate of appealability is, therefore, granted.

4

APPENDIX B

APPENDIX C

Case: 19-2718

Document: 58-1

Page: 1

Date Filed: 06/29/2020

OFFICE OF THE CLERK

PATRICIA S. DODSZUWEIT

United States Court of Appeals

TELEPHONE

CLERK

FOR THE THIRD CIRCUIT
21400 UNITED STATES COURTHOUSE
601 MARKET STREET
PHILADELPHIA, PA 19106-1790

215-597-2995

Website: www.ca3.uscourts.gov
June 29, 2020
Ms. Kate Barkman
United States District Court for the Eastern District of Pennsylvania
James A. Byrne United States Courthouse
601 Market Street
Room 2609
Philadelphia, PA 19106

RE: USA v. Nazariy Kmet
Case Number: 19-2718
District Court Case Number: 2- 14-cr-00319-001
Dear District Court Clerk.
Enclosed herewith is the certified judgment together with copy of the opinion or certified copy of
the order in the above-captioned case(s). The certified judgment or order is issued in lieu of a
formal mandate and is to be treated in all respects as a mandate.
Counsel are advised of the issuance of the mandate by copy of this letter. The certified judgment
or order is also enclosed showing costs taxed, if any.

Very truly yours,
Patricia S. Dodszuweit, Clerk
By: s/Laurie
Case Manager
267-299-4936
cc: Mary E. Crawley
Nazariy Kmet

Case: 19-2718

Document: 58-2

Page: 1

Date Filed: 06/29/2020

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 19-2718
UNITED STATES OF AMERICA
v.
NAZARIY KMET, a/k/a Naz,
Appellant
On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D.C. No. 2-14-cr-0319-001)
District Judge: Honorable Nitza I. Quinones Alejandro
Submitted Under Third Circuit LAR 34.1(a)
March 26, 2020
Before: JORDAN, RESTREPO, and FUENTES, Circuit Judges.
JUDGMENT
This cause came to be considered on the record from the United States District
Court for the Eastern District of Pennsylvania and was submitted pursuant to Third
Circuit L.A.R. 34.1(a) on March 26, 2020. On consideration whereof,

Case: 19-2718

Document: 58-2

Page: 2

Date Filed: 06/29/2020

It is now hereby ORDERED and ADJUDGED that the Order of the District Court
entered on July 16, 2019 is hereby AFFIRMED. All of the above in accordance with the
opinion of this Court.
ATTEST:
s/ Patricia S. Dodszuweit
Clerk
DATE: March 31, 2020
O

*
I

firi;

CertifieePi$i&iF
py*atid issued in lieu
of a forrtv^j maKttateift& June 29, 2020
/k'3 S.l'^

Teste:
Clerk, U.S. Court of Appeals for the Third Circuit

2

Case: 19-2718

Document: 58-3

Page: 1

Date Filed: 06/29/2020

NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 19-2718
UNITED STATES OF AMERICA
v.

NAZARIY KMET, a/k/a Naz,
Appellant
On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D.C. No. 2-14-cr-0319-001)
District Judge: Honorable Nitza I. Quinones Alejandro
Submitted Under Third Circuit LAR 34.1 (a)
March 26, 2020
Before: JORDAN, RESTREPO, andFUENTES, Circuit Judges.
(Filed: March 31, 2020)
OPINION*

* This disposition is not an opinion of the full court and, pursuant to I.O.P. 5.7,
does not constitute binding precedent.

Case: 19-2718

Document: 58-3

Page: 2

Date Filed: 06/29/2020

JORDAN, Circuit Judge.
Nazariy Kmet owned Life Support Corporation (“Life Support”), a company that
transported patients by ambulance and billed Medicare for those services. The
government alleged that Kmet was billing Medicare for medically unnecessary trips and
that he paid his patients kickbacks. He pled guilty to one count of conspiracy to commit
health care fraud and one count of violating the anti-kickback statute. After sentencing,
Kmet filed a motion under 28 U.S.C. § 2255. He alleged that his counsel was ineffective
by failing to research a potential defense.
The District Court concluded that Kmet did not prove either that his lawyer’s
performance was deficient or that he had been prejudiced by it, but the Court nonetheless
issued a certificate of appealability on the question of whether counsel’s performance
actually was constitutionally deficient for failing to advise Kmet of a potential defense.
We agree with the District Court that Kmet’s § 2255 motion fails, so will affirm.
I.

Background
Between May 2010 and December 2012, Kmet, along with others, provided

ambulance services and billed Medicare for medically unnecessary trips, mainly for
regularly scheduled, non-emergency transportation to and from dialysis. Although he
had acquired from a physician certificates of medical necessity (“CMNs”) for the trips,
Kmet and his co-defendants paid kickbacks to patients, many of whom were fully mobile
and able to take ordinary transportation.
Kmet was indicted for conspiracy to commit health care fraud, in violation of 18
U.S.C. § 1349 (Count One); two counts of wire fraud, in violation of 18 U.S.C. § 1343
2

Case: 19-2718

Document: 58-3

Page: 3

Date Filed: 06/29/2020

(Counts Two and Three); two counts of making false statements in connection with
health care matters, in violation of 18 U.S.C. § 1035 (Counts Four and Five); three counts
of violating the anti-kickback statute, 42 U.S.C. § 1320a-7b(b)(2)(B) (Counts Six through
Eight); and four counts of money laundering, including one count in violation of 18
U.S.C. § 1956 (Count Nine) and three counts in violation of 18 U.S.C. § 1957 (Counts
Ten through Twelve). Represented by counsel, he pled guilty to conspiracy to commit
health care fraud (Count One) and violation of the anti-kickback statute (Count Seven).
Prior to sentencing and represented by new counsel, Kmet filed a motion to
withdraw his guilty plea. United States v. Kmet, 667 F. App’x 357, 358 (3d Cir. 2016).
“He stated that he began researching his case after pleading guilty and concluded that he
was innocent.” Id. The District Court denied the motion and sentenced him to 72
months’ imprisonment. Id. We affirmed. Id. at 358-59.
After his direct appeal, Kmet filed the § 2255 motion at the center of this appeal.
He argued that his counsel “failed to conduct basic research into the law governing the
charges brought against [him] and but for counsel’s failures, [he] would not have
consented to pleading guilty on the terms provided in the September 3, 2014 plea
agreement.” (App. at 42-43 (internal quotation marks and citations omitted).) More
specifically, Kmet argued that, under the regulations and case law in place at the time, he
had a defense that his conduct was not illegal because a CMN was sufficient to establish
medical necessity for the ambulance trips.
The District Court referred the motion to a Magistrate Judge who held a hearing
on the motion and recommended that the District Court deny it and not issue a certificate
3

Case: 19-2718

Document: 58-3

Page: 4

Date Filed: 06/29/2020

of appealability. The District Court adopted the report and recommendation in part,
denying the motion. The District Court did, however, issue a certificate of appealability
on the question of whether counsel’s performance was ineffective for failing to advise
Kmet of the potential defense that he did not commit health care fraud because he had
CMNs for the ambulance services that were the subject of the prosecution.
This timely appeal followed.
II.

Discussion i
In Strickland v. Washington, the Supreme Court established a two-part test for

ineffective assistance of counsel. The first part requires “showing that counsel made
errors so serious that counsel was not functioning as the ‘counsel’ guaranteed the
defendant by the Sixth Amendment.” 466 U.S. 668, 687 (1984). The second part
requires showing that “there is a reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding would have been different. A
reasonable probability is a probability sufficient to undermine confidence in the
outcome.” Id. at 694. In the context of a guilty plea, “the defendant must show that there
is a reasonable probability that, but for counsel’s errors, he would not have pleaded guilty
and would have insisted on going to trial.” Hill v. Lockhart, 474 U.S. 52, 59 (1985).
“When addressing a guilty plea, counsel is required to give a defendant enough
information to make a reasonably informed decision whether to accept a plea offer.”

1 The District Court had jurisdiction under 28 U.S.C. § 2255, and we have
jurisdiction under 28 U.S.C. § 2253. We review de novo a decision whether to grant or
deny a petition under 28 U.S.C. § 2255. United States v. Cleary, 46 F.3d 307, 309-10 (3d
Cir. 1995).
4

Case: 19-2718

Document: 58-3

Page: 5

Date Filed: 06/29/2020

United States v. Bui, 795 F.3d 363, 367 (3d Cir. 2015) (internal quotation marks omitted).
We agree with the District Court that Kmet cannot meet either prong of the Strickland
test.
First, Kmet’s lawyer was not constitutionally ineffective. At the time of Kmet’s
conduct, the relevant Medicare regulation, 42 C.F.R. § 410.40, provided as follows:
(d) Medical necessity requirements—
(1) General rule. Medicare covers ambulance services ... only if they are
furnished to a beneficiary whose medical condition is such that other means
of transportation are contraindicated. The beneficiary’s condition must
require both the ambulance transportation itself and the level of service
provided in order for the billed service to be considered medically necessary.
Nonemergency transportation by ambulance is appropriate if either: the
beneficiary is bed-confined, and it is documented that the beneficiary’s
condition is such that other methods of transportation are contraindicated; or,
if his or her medical condition, regardless of bed confinement, is such that
transportation by ambulance is medically required. Thus, bed confinement
is not the sole criterion in determining the medical necessity of ambulance
transportation. It is one factor that is considered in medical necessity
determinations....
(2) Special rule for nonemergency, scheduled, repetitive ambulance services.
Medicare covers medically necessary nonemergency, scheduled, repetitive
ambulance services if the ambulance provider or supplier, before furnishing
the service to the beneficiary, obtains a written order from the beneficiary’s
attending physician certifying that the medical necessity requirements of
paragraph (d)(1) of this section are met. The physician’s order must be dated
no earlier than 60 days before the date the service is furnished.
42 C.F.R. § 410.40 (2012).
When Kmet pled guilty, there was conflicting case law regarding whether a CMN
alone was sufficient under the regulation to justify the kinds of trips Life Support was
providing to dialysis patients. On one side, two unreported cases from the Middle
District of Tennessee concluded that a CMN was sufficient. MooreCare Ambulance
5

Case: 19-2718

Document: 58-3

Page: 6

Date Filed: 06/29/2020

Serv. LLC v. Dep ’t ofHealth and Human Servs., No. 09-78, 2011 WL 839502, at *3
(M.D. Term. Mar. 4, 2011); First Call Ambulance Servs., Inc. v. Dep’t ofHealth &
Human Servs., No. 10-247, 2012 WL 769617, at *6 (M.D. Term. March 8, 2012). Other
cases, however, including a reported case from the Fifth Circuit, concluded the opposite.
See United States v. Read, 710 F.3d 219, 228 (5th Cir. 2012) (“Possession of a CMN—
even one that is legitimately obtained—does not permit a provider to seek reimbursement
for ambulance runs that are obviously not medically necessary.”); Am. Ambulance Serv.
ofPenn. Inc. v. Sullivan, 761 F. Supp. 1211, 1217 (E.D. Pa. 1991), aff’d, 947 F.2d 934
(3d Cir. 1991) (interpreting earlier version of ambulance regulations and concluding that
the “statute’s language emphasizes that physician certification is a necessary, but not
sufficient, predicate to reimbursement”). 2

2 On the day of Kmet’s plea, a decision in the Eastern District of Pennsylvania
rejected the argument that Kmet now raises. See United States v. Hlushmanuk, No. 12327, 2014 WL 5780814, at *7 n.8 (E.D. Pa. Nov. 6, 2014) (“[Defendant] appears to
suggest that he was entitled to rely on Certificates of Medical Necessity.... [WJhere, as
here, Hlushmanuk admitted that he knew that the transports were not medically
necessary, he cannot rely on any CMNs that he may have received to establish his
innocence of the charges against him and the impropriety of his guilty plea.”). In 2017,
we issued a split decision in an unreported opinion, with the majority citing the two
decisions from the Middle District of Tennessee and agreeing that a CMN alone was
sufficient to support reimbursement for an ambulance trip. See United States v.
Advantage Med. Transport, Inc., 698 F. App’x 680, 689 (3d Cir. 2017) (“Valid, timeappropriate certificates of medical necessity from physicians were on file for each of
these three beneficiaries. Under the regulation in effect at the time and as interpreted by
at least two district courts, that was all that was needed to make these transports
medically necessary.”). Because Hlushmanuk came out on the same day as Kmet’s plea
and Advantage Medical Transport came out years later, they could not have informed the
advice Kmet’s lawyer gave him one way or another. Cf. Strickland, 466 U.S. at 689 (“A
fair assessment of attorney performance requires that every effort be made to eliminate
the distorting effects of hindsight, to reconstruct the circumstances of counsel’s
challenged conduct, and to evaluate the conduct from counsel’s perspective at the time.”).
6

Case: 19-2718

Document: 58-3

Page: 7

Date Filed: 06/29/2020

The Department of Health and Human Services decided an amendment to 42
C.F.R. § 410.40(d)(2) was needed to make clear that a CMN cannot justify ambulance
services that are not genuinely medically necessary. See 77 Fed. Reg. 68892-01, 69161
(Nov. 16, 2012) (“Despite these statutory provisions and the language of the present
regulation at § 410.40(d)(2) that we believe already requires both medical necessity and a
[CMN], some courts have recently concluded that § 410.40(d)(2) establishes that a
sufficiently detailed and timely order from a beneficiary’s physician, to the exclusion of
any other medical necessity requirements, conclusively demonstrates medical necessity
with respect to nonemergency, scheduled, repetitive ambulance services.”). The
regulation was amended to add that “[t]he presence of the signed physician certification
statement does not alone demonstrate that the ambulance transport was medically
necessary.” 42 C.F.R. § 410.40(d)(2)(ii) (2013) (current version 42 C.F.R. §
410.40(e)(2)(h) (2020)). That amendment went into effect January 1, 2013, after Kmet’s
conduct but before he pled guilty.
At the time of Kmet’s lawyer’s advice to plead guilty, it was not at all clear that
the defense Kmet now wishes he had made would have been accepted by the sentencing
court, given that the only support for that defense was two unreported cases from a
district court in another circuit, whereas other substantial authority, including authority
from within this circuit, supported the opposite interpretation. Notably, the cases Kmet
relied on involved administrative appeals regarding overbilling of Medicare, not criminal
conduct, and, as the Magistrate Judge here observed, “they do not support the conclusion
that a CMN provides carte blanche in a criminal context.” (App. at 45.)
7

Case: 19-2718

Document: 58-3

Page: 8

Date Filed: 06/29/2020

In addition, the Magistrate Judge made clear that she credited the testimony of
Kmet’s lawyer when he said that presenting an “I had a CMN” defense would have been
unsuccessful because the evidence against Kmet was overwhelming. For example, there
was evidence that Life Support transported patients in personal vehicles, taxis, and via
public transportation; that “all but one patient could walk or safely be transported by
other means;” that Life Support’s ambulances did not pass state inspection and were not
equipped with necessary medical equipment; and that Life Support paid patients to
continue to use its services. (App. at 47.) And the defense would not have defeated
several of the other charges, including the kickback charges. The decision not to pursue
the CMN defense thus does not mean that counsel was ineffective, according to the
standard of ineffectiveness under Strickland.
Second, Kmet has not shown that he was prejudiced - that is, that “there is a
reasonable probability that, but for counsel’s errors, he would not have pleaded guilty and
would have insisted on going to trial.” Hill, 474 U.S. at 59. First, the District Court
rejected Kmet’s testimony that he would not have pled guilty but for his lawyer’s
supposed errors. In her report and recommendation, the Magistrate Judge said that
“[ajlthough Defendant testified that he would have chosen to go to trial if [counsel had]
informed him of the possibility of raising a CMN defense, the Court does not credit this
testimony.” (App. at 53.) As the Magistrate Judge explained, a number of factors
contributed to Kmet’s decision to plead guilty, including that Kmet had reviewed the
discovery with his lawyer, and that the lawyer had explained that the government would

8

Case: 19-2718

Document: 58-3

Page: 9

Date Filed: 06/29/2020

dismiss counts, and that consequently, Kmet’s sentencing exposure would be drastically
reduced if he pled guilty.
Even if counsel had advised Kmet about the potential defense and Kmet decided
to proceed to trial, it is unlikely that the defense would have been successful. As
explained above, the case law at the time indicated that the District Court may well have
rejected the defense, and there also was overwhelming evidence against Kmet.
Additionally, the CMN defense would not have been a defense to several of the charges
against Kmet, so continuing to trial would have risked conviction on all twelve counts
and would likely have resulted in a longer sentence. All of this persuades us that Kmet
did not suffer prejudice. See Hill, 474 U.S. at 59 (“[Wjhere the alleged error of counsel
is a failure to advise the defendant of a potential affirmative defense to the crime charged,
the resolution of the ‘prejudice’ inquiry will depend largely on whether the affirmative
defense likely would have succeeded at trial.”).
III.

CONCLUSION

For the foregoing reasons, we will affirm the District Court’s order denying
Kmet’s § 2255 Motion to Vacate, Set Aside, or Correct Sentence.

9

a xiaNaddv

*■

Case: 19-2718

Document: 57

Page: 1

Date Filed: 06/19/2020

UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
No. 19-2718
UNITED STATES OF AMERICA
v.

NAZARIY KMET, a/k/a Naz,
Appellant
(E.D. Pa. No. 2-14-cr-00319-001)
SUR PETITION FOR REHEARING
Present: SMITH, Chief Judge. McKEE, AMBRO, CHAGARES, JORDAN,
HARDIMAN, GREENAWAY, JR., SHWARTZ, KRAUSE, RESTREPO, BIBAS,
PORTER, MATEY, PHIPPS, and FUENTES*, Circuit Judges
The petition for rehearing filed by appellant in the above-entitled case having been
submitted to the judges who participated in the decision of this Court and to all the other
available circuit judges of the circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing, and a majority of the judges of the
circuit in regular service not having voted for rehearing, the petition for rehearing by the
panel and the Court en banc, is DENIED.
BY THE COURT
s/ Kent A. Jordan
Circuit Judge
DATE: June 19, 2020
Lmr/cc: Mary E. Crawley
Nazariy Kmet
* * Judge Fuentes’s vote is limited to panel rehearing only.

a xidNaddv

4

*

AUTHENTICATED /
U.S. GOVERNMENT
INFORMATION

t

42 CFR Ch. IV (10-1-11 Edition)

§410.40
(iii) For years beginning after 2002,
other procedures CMS finds appro­
priate for the purpose of early detec­
tion of prostate cancer, taking into ac­
count changes in technology and stand­
ards of medical practice, availability,
effectiveness, costs, and other factors
CMS considers appropriate.
(2) A screening digital rectal examina­
tion means a clinical examination of an
individual’s prostate for nodules or
other abnormalities of the prostate.
(3) A screening prostate-specific antigen
blood test means a test that measures
the level of prostate-specific antigen in
an individual’s blood.
(4) A physician for purposes of this
provision means a doctor of medicine
or osteopathy (as defined in section
1861(r)(l) of the Act) who is fully
knowledgeable about the beneficiary,
and who would be responsible for ex­
plaining the results of the screening
examination or test.
(5) A physician assistant, nurse prac­
titioner, clinical nurse specialist, or
certified nurse midwife for purposes of
this provision means a physician as­
sistant, nurse practitioner, clinical
nurse specialist, or certified nurse mid­
wife (as defined in sections 1861(aa) and
1861(gg) of the Act) who is fully knowl­
edgeable about the beneficiary, and
who would be responsible for explain­
ing the results of the screening exam­
ination or test.
(b) Condition for coverage of screening
digital rectal examinations. Medicare
Part B pays for a screening digital rec­
tal examination if it is performed by
the beneficiary’s physician, or by the
beneficiary’s physician assistant, nurse
practitioner, clinical nurse specialist,
or certified nurse midwife as defined in
paragraphs (a)(4) or (a)(5) of this sec­
tion who is authorized to perform this
service under State law.
(c) Limitation on coverage of screening
digital rectal examinations. (1) Payment
may not be made for a screening dig­
ital rectal examination performed for a
man age 50 or younger.
(2) For an individual over 50 years of
age, payment may be made for a
screening digital rectal examination
only if the man has not had such an ex­
amination paid for by Medicare during
the preceding 11 months following the
month in which his last Medicare-cov-

ered screening digital rectal examina­
tion was performed.
(d) Condition for coverage of screening
prostate-specific antigen blood tests.
Medicare Part B pays for a screening
prostate-specific antigen blood test if
it is ordered by the beneficiary’s physi­
cian, or by the beneficiary’s physician
assistant, nurse practitioner, clinical
nurse specialist, or certified nurse mid­
wife as defined in paragraphs (a)(4) or
(a)(5) of this section who is authorized
to order this test under State law.
(e) Limitation on coverage of screening
prostate-specific antigen blood test. (1)
Payment may not be made for a
screening prostate-specific antigen
blood test performed for a man age 50
or younger.
(2) For an individual over 50 years of
age, payment may be made for a
screening prostate-specific antigen
blood test only if the man has not had
such an examination paid for by Medi­
care during the preceding 11 months
following the month in which his last
Medicare-covered screening prostatespecific antigen blood test was per­
formed.
[64 FR 59440, Nov. 2. 1999. as amended at 65
FR 19331, Apr. 11, 2000]
§ 410.40 Coverage of ambulance serv­
ices.
(a). Basic rules. Medicare Part B cov­
ers ambulance services if the following
conditions are met:
(1) The supplier meets the applicable
vehicle, staff, and billing and reporting
requirements of §410.41 and the service
meets the medical necessity and origin
and destination requirements of para­
graphs (d) and (e) of this section.
(2) Medicare Part A payment is not
made directly or indirectly for the
services.
(b) Levels of service. Medicare covers
the following levels of ambulance serv­
ice, which are defined in § 414.605 of this
chapter:
(1) Basic life support (BLS) (emer­
gency and nonemergency).
(2) Advanced life support, level 1
and
non(emergency
(ALS1)
emergency).
(3) Advanced life support, level 2
(ALS2).
(4) Paramedic ALS intercept (PI).
(5) Specialty care transport (SCT).

380

»

Centers tor Medicare & Medicaid Services, HHS
(6) Fixed wing transport (FW).
(7) Rotary wing transport (RW).
(c) Paramedic ALS intercept services.
Paramedic ALS intercept services
must meet the following requirements:
(1) Be furnished in an area that is
designated as a rural area by any law
or regulation of the State or that is lo­
cated in a rural census tract of a met­
ropolitan statistical area (as deter­
mined under the most recent Gold­
smith Modification). (The Goldsmith
Modification is a methodology to iden­
tify small towns and rural areas within
large metropolitan counties that are
isolated from central areas by distance
or other features.)
(2) Be furnished under contract with
one or more volunteer ambulance serv­
ices that meet the following condi­
tions:
(i) Are certified to furnish ambulance
services as required under §410.41.
(ii) Furnish services only at the BLS
level.
(iii) Be prohibited by State law from
billing for any service.
(3) Be furnished by a paramedic ALS
intercept supplier that meets the fol­
lowing conditions:
(i) Is certified to furnish ALS serv­
ices as required in § 410.41(b)(2).
(ii) Bills all the recipients who re­
ceive ALS intercept services fro the en­
tity, regardless of whether or not those
recipients are Medicare beneficiaries.
(d) Medical necessity requirements—(1)
General rule. Medicare covers ambu­
lance services, including fixed wing and
rotary wing ambulance services, only if
they are furnished to a beneficiary
whose medical condition is such that
other means of transportation are con­
traindicated. The beneficiary’s condi­
tion must require both the ambulance
transportation itself and the level of
sendee provided in order for the billed
service to be considered medically nec­
essary. Nonemergency transportation
by ambulance is appropriate if either:
the beneficiary is bed-confined, and it
is documented that the beneficiary’s
condition is such that other methods of
transportation are contraindicated; or,
if his or her medical condition, regard­
less of bed confinement, is such that
transportation by ambulance is medi­
cally required. Thus, bed confinement
is not the sole criterion in determining

§410.40

the medical necessity of ambulance
transportation. It is one factor that is
considered in medical necessity deter­
minations. For a beneficiary to be con­
sidered bed-confined, the following cri­
teria must be met:
(1) The beneficiary is unable to get up
from bed without assistance.
(ii) The beneficiary is unable to am­
bulate.
(iii) The beneficiary is unable to sit
in a chair or wheelchair.
(2) Special rule for nonemergency,
scheduled, repetitive ambulance services.
Medicare covers medically necessary
nonemergency, scheduled, repetitive
ambulance services if the ambulance
provider or supplier, before furnishing
the service to the beneficiary, obtains
a written order from the beneficiary’s
attending physician certifying that the
medical necessity requirements of
paragraph (d)(1) of this section are met.
The physician’s order must be dated no
earlier than 60 days before the date the
service is furnished.
(3) Special rule for nonemergency ambu­
lance services that are either unscheduled
or that are scheduled on a nonrepetitive
basis. Medicare covers medically nec­
essary nonemergency ambulance serv­
ices that are either unscheduled or
that are scheduled on a nonrepetitive
basis under one of the following cir­
cumstances:
(i) For a resident of a facility who is
under the care of a physician if the am­
bulance provider or supplier obtains a
written order from the beneficiary’s at­
tending physician, within 48 hours
after the transport, certifying that the
medical necessity requirements of
paragraph (d)(1) of this section are met.
(ii) For a beneficiary residing at
home or in a facility who is not under
the direct care of a physician. A physi­
cian certification is not required.
(iii) If the ambulance provider or sup­
plier is unable to obtain a signed physi­
cian certification statement from the
beneficiary's attending physician, a
signed certification statement must be
obtained from either the physician as­
sistant (PA), nurse practitioner (NP),
clinical nurse specialist (CNS), reg­
istered nurse (RN), or discharge plan­
ner, who has personal knowledge of the
beneficiary’s condition at the time the
ambulance transport is ordered or the

381

*•

42 CFR Ch. IV (10-1-11 Edition)

§410.41
service is furnished. This individual
must be employed by the beneficiary’s
attending physician or by the hospital
or facility where the beneficiary is
being treated and from which the bene­
ficiary is transported. Medicare regula­
tions for PAs, NPs, and CNSs apply and
all applicable State licensure laws
apply: or,
(iv) If the ambulance provider or sup­
plier is unable to obtain the required
certification within 21 calendar days
following the date of the service, the
ambulance supplier must document its
attempts to obtain the requested cer­
tification and may then submit the
claim. Acceptable documentation in­
cludes a signed return receipt from the
U.S. Postal Service or other similar
service that evidences that the ambu­
lance supplier attempted to obtain the
required signature from the bene­
ficiary’s attending physician or other
individual
named
in
paragraph
(d)(3)(iii) of this section.
(v) In all cases, the provider or sup­
plier must keep appropriate docu­
mentation on file and, upon request,
present it to the contractor. The pres­
ence of the signed certification state­
ment or signed return receipt does not
alone demonstrate that the ambulance
transport was medically necessary. All
other program criteria must be met in
order for payment to be made.
(e) Origin and destination requirements.
Medicare covers the following ambu­
lance transportation:
(1) From any point of origin to the
nearest hospital, CAH, or SNF that is
capable of furnishing the required level
and type of care for the beneficiary’s
illness or injury. The hospital or CAH
must have available the type of physi­
cian or physician specialist needed to
treat the beneficiary’s condition.
(2) From a hospital, CAH, or SNF to
the beneficiary’s home.
(3) From a SNF to the nearest sup­
plier of medically necessary services
not available at the SNF where the
beneficiary is a resident, including the
return trip.
(4) For a beneficiary who is receiving
renal dialysis for treatment of ESRD,
from the beneficiary’s home to the
nearest facility that furnishes renal di­
alysis, including the return trip.

(f) Specific limits on coverage of ambu­
lance services outside the United States. If
services are furnished outside the
United States, Medicare Part B covers
ambulance transportation to a foreign
hospital only in conjunction with the
beneficiary’s admission for medically
necessary inpatient services as speci­
fied in subpart H of part 424 of this
chapter.
[64 FR 3648, Jan. 25. 1999. as amended at 65
FR 13914. Mar. 15, 2000; 67 FR 9132, Feb. 27,
2002]
§ 410.41 Requirements for ambulance
suppliers.
(a) Vehicle. A vehicle used as an am­
bulance must meet the following re­
quirements;
(1) Be specially designed to respond
to medical emergencies or provide
acute medical care to transport the
sick and injured and comply with all
State and local laws governing an
emergency transportation vehicle.
(2) Be equipped with emergency
warning lights and sirens, as required
by State or local laws.
(3) Be equipped with telecommuni­
cations equipment as required by State
or local law to include, at a minimum,
one two-way voice radio or wireless
telephone.
(4) Be equipped with a stretcher, lin­
ens, emergency medical supplies, oxy­
gen equipment, and other lifesaving
emergency medical equipment as re­
quired by State or local laws.
(b) Vehicle staff—(1) BLS vehicles. A
vehicle furnishing ambulance services
must be staffed by at least two people,
one of whom must meet the following
requirements:
(1) Be certified as an emergency med­
ical technician by the State or local
authority where the services are fur­
nished.
(ii) Be legally authorized to operate
all lifesaving and life-sustaining equip­
ment on board the vehicle.
(2) ALS vehicles. In addition to meet­
ing the vehicle staff requirements of
paragraph (b)(1) of this section, one of
the two staff members must be cer­
tified as a paramedic or an emergency
medical technician, by the State or
local authority where the services are
being furnished, to perform one or
more ALS services.

382

